HHS/OIG-Audit--"Audit of the Home Office Cost Statement of Staff Builders, Inc. for the Fiscal Year Ended February 28, 1994, (A-02-95-01019)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Home Office Cost Statement of Staff Builders, Inc. for the Fiscal Year Ended February 28, 1994," (A-02-95-01019)
August 19, 1998
Complete Text of Report  is available in PDF format (870 KB). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1142.
EXECUTIVE SUMMARY:
This final audit report points out that Staff Builders, Inc. improperly claimed Medicare reimbursements for home office
costs totaling approximately $3.4 million for Fiscal Year 1994. The improper claims were related to costs that were; improperly
allocated, primarily related to private lines of business, not related to patient care, not reasonable, inadequately documented,
and not properly offset by related rebates and interest income. We recommended a financial adjustment and procedural improvements
to strengthen controls applicable to the preparation of future home office cost statements.